Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grantsto the Cobb County, Georgia, Board of Commissioners

Report No. GR-40-03-007


June 2003
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Cobb County, Georgia, Board of Commissioners (CCBOC). The purpose of the grants is to enhance community policing. COPS awarded the CCBOC $4,720,509 to hire 63 new police officers to serve in the Cobb County Police Department (CCPD).
We found the CCPD to be in material compliance with COPS grant requirements. We reviewed the grantee's compliance with six essential grant conditions and found the grantee's budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, and types of community policing to be acceptable.
These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I.